Audit of USAID Compliance with Military
Coup d’Etat-Related Program Suspension
Requirements of Section 508 and Other
Related Sections of the Foreign Operations
Appropriation Acts -Cote d’Ivoire
Audit Report No. 7-000-02-003-P
March 21, 2002




                 Dakar, Senegal
U.S. Agency for
 INTERNATIONAL
 DEVELOPMENT




                                                      March 21, 2002

MEMORANDUM
FOR:              AFR/DAA, Keith E. Brown

FROM:             DAIG/A, Bruce N. Crandlemire

SUBJECT:          Audit of USAID’s Compliance with Military Coup d’Etat-
                  Related Program Suspension Requirements of Section 508
                  and Other Related Sections of the Foreign Operations
                  Appropriation Acts—Cote d’Ivoire (Report No. 7-000-02-
                  003-P)


This memorandum is our report on the subject audit. We have considered
your comments to the draft report and have included them in their entirety as
Appendix II. The report contains three recommendations for your action, of
which Recommendation No. 1 is closed with final action completed.

Based upon your comments to the draft report, we concur that the Bureau for
Africa has reached a management decision on Recommendation Nos. 2 and
3. In accordance with USAID guidance, M/MPI is responsible for
determining when final action has occurred. Therefore, when sufficient
documentary evidence is available that planned actions have taken place,
the Bureau should contact M/MPI for a determination of final action.

I appreciate the cooperation and courtesy extended to my staff during the
audit.




                                                                        1
Table of                                                                       Page
Contents
           Summary of Results                                                      3

           Background                                                              4

           Audit Objective

                  For its programs in Cote d’Ivoire, did USAID comply
                  with selected sections of recent legislation, which address
                  the suspension of assistance to countries whose democratically
                  elected head of government was deposed by a military
                  coup d’ état?                                                     4

           Audit Findings                                                          4

                  Activities Resumed Under Statutory Authorities                   5

                  USAID-funded Peace Corps Activities Were Not Suspended           7

                  Activity Resumed Prior to End of Congressional
                  Notification Period                                              10

           Management Comments and Our Evaluation                                  11

           Appendices

                  Scope and Methodology                                            13

                  Management Comments                                              15

                  Description of Activities                                        20




                                                                               2
Summary of   On December 24, 1999, the Cote d’Ivoire military deposed the country's
Results      democratically elected president in a military coup d’ état. Under the
             provisions of Section 508 of the appropriations act1 (the Act), on December
             29, 1999, the United States government suspended its assistance program in
             Cote d’Ivoire. (Page 4)

             The OIG performed this audit to determine whether, for its programs in
             Cote d’Ivoire, USAID complied with selected sections of recent
             legislation, which address the suspension of assistance to countries whose
             democratically elected head of government was deposed by a military
             coup d’ état. The audit disclosed that USAID generally did comply with
             the above legislation, except for two programs. (Page 4)

             Following USAID’s instructions, most of USAID’s recipients reported
             suspending their activities. USAID then prepared a “wind up” plan,
             identifying the majority of its programs in Cote d’Ivoire, and approving the
             continuation of the programs under available statutory exemptions.
             Following the approvals, and in certain required cases notification to
             Congress, USAID resumed the majority of its programs. (Page 5)

             However, a USAID-funded Peace Corps program in Cote d’Ivoire was not
             suspended as required by Section 508. This occurred because the Africa
             Bureau did not have adequate controls to ensure that the “wind up” plan
             identified all activities. Therefore, Bureau managers were not aware of the
             Peace Corps activities, and did not coordinate with other offices to instruct
             the Peace Corps to suspend those activities. (Page 7)

             A USAID-funded project was also resumed prior to the end of the
             congressional notification period, contrary to Section 508. Although
             Democracy and Human Rights Fund activities were initially stopped after
             the coup d’ état, the USAID Administrator signed a waiver under Section
             541(a), permitting resumption of activities, but also requiring congressional
             notification. Since one of the activities was resumed prior to the end of the
             notification period, the waiver technically had not taken effect and Section
             508 sanctions still applied. This occurred because the Bureau for Africa did
             not coordinate with other offices to ensure that program personnel were
             clearly instructed regarding when activities could resume. (Page 10)

             The audit report recommends that the Bureau for Africa coordinate with
             other USAID offices to request that USAID-funded Peace Corps activities
             be suspended until a waiver is obtained. The audit also recommended that
             the Bureau coordinate procedures with other appropriate

             1
                 Foreign Operations, Export Financing, and Related Programs Appropriations Act,
                 FY 2000



                                                                                                  3
                  USAID offices to ensure that in the future all activities are identified on
                  “wind up” plans and all activity personnel are notified of the program
                  suspension. Also recommended were coordination procedures with other
                  offices to ensure that in the future no activities are resumed prior to the end
                  of any required congressional notification period. Bureau management
                  generally agreed with the findings in this report. (Pages 9 and 11)



Background        The Cote d’Ivoire military deposed the country's democratically elected
                  President in a coup d’ état led by retired Chief of Staff General Guei. A
                  military mutiny that began in Abidjan on December 23, 1999, and faced
                  virtually no resistance, turned into a largely bloodless coup d’ état when
                  General Guei came forward and declared himself the country's new leader on
                  December 24, 1999.

                  On December 29, 1999, the United States Government, under the provisions
                  of Section 508 of the fiscal year 2000 appropriations act2 (the Act),
                  suspended its assistance program in Cote d’Ivoire in response to the coup d’
                  état. Section 508 provides that no funds appropriated, or otherwise made
                  available, under the Act shall be obligated or expended to finance directly
                  any assistance to any country whose democratically elected head of
                  government was deposed by a military coup d’ état.

                  The audit field work ran from February 2001 to October 2001. The Section
                  508 sanctions concerning assistance to Cote d’Ivoire remained in effect as of
                  the end of the field work.


Audit Objective   As part of our fiscal year 2001 annual audit plan, we performed this audit
                  to answer the following audit objective:

                  For its programs in Cote d’Ivoire, did USAID comply with selected
                  sections of recent legislation, which address the suspension of
                  assistance to countries whose democratically elected head of
                  government was deposed by a military coup d’ état?

                  Appendix I contains a discussion of the scope and methodology for the audit.



Audit Findings    USAID generally complied with selected sections of recent legislation that
                  address the suspension of assistance to countries whose democratically
                  elected head of government was deposed by a military

                  2
                      Foreign Operations, Export Financing, and Related Programs Appropriations Act,
                      FY 2000



                                                                                                       4
coup d’ état. It appropriately instructed the majority of program
participants to suspend activities, prepared a “wind up” plan for most
activities, obtained required waivers under available statutory authorities,
and notified Congress as required by certain waivers. As a result, all
USAID recipients that were notified by USAID reported suspending their
activities. However, a USAID-funded Peace Corps program was not
suspended as required by the subject legislation, and the necessary actions
to obtain the required exemption from Section 508 sanctions were not
completed. Additionally, a USAID-funded Democracy and Human Rights
project was resumed without waiting for the congressional notification
period to elapse, as required by the Act. These issues are discussed below.

Activities Resumed
Under Statutory Authorities

In January of 2000, USAID issued guidance to the program
implementation office for the Family Health and AIDS Program and all
affected USAID/Washington offices that there should be no new
obligations of funds for programs in Cote d’Ivoire. The guidance further
stated that disbursements of already obligated program funds should be
kept to a minimum. The guidance also stated that USAID-funded
contractors and grantees should immediately stop providing assistance to
governmental and private recipients in Cote d’Ivoire until further notice
from USAID/Washington. Consequently, most recipients reported that
they suspended activities as requested, in accordance with Section 508.

To facilitate the implementation of Section 508 sanctions (i.e. the
cessation of all USAID-funded assistance), USAID issued additional
guidance in January 2000 for the preparation of a “wind up” plan. The
plan was to include such things as: (1) a description of all assistance
activities being conducted in Cote d’Ivoire; (2) a discussion of the effect
of suspension or termination of the programs and activities; (3)
identification of exemptions/waivers/exceptions available for continuing
an activity; and (4) a recommendation on whether and how the “wind up”
program should be utilized. USAID’s Bureau for Africa prepared a “wind
up” plan for approval by the Assistant Administrator on May 22, 2000.

The “wind up” plan contained descriptions and suggested actions for the
following USAID supported activities:

!   Family Health and AIDS -West Africa and Central Africa (FHA);
!   Democracy and Human Rights Fund (DHRF);
!   Special Self-Help (SSH);
!   Election Support by Consortium for Elections and Political Process
    Strengthening (CEPPS);
!   ATRIP: Global Technology Network (GTN);



                                                                       5
!      The West African Rice Development Association (WARDA);
!      UNICEF Assistance (community-based surveillance of suspected
       polio); and
!      Demographic and Health Survey.

A summary description of these activities is presented in Appendix III.

As a result of its analysis of activities as described in its “wind up” plan,
USAID decided to continue seven activities based on various statutory
authorities or exceptions that allowed it to continue the activities despite
the Section 508 sanctions. Most recipients did not resume activities until
the waivers were obtained and, when required, the congressional
notification period had expired.

Section 541(a) authority—Section 541(a) of the appropriations act
permits USAID to provide assistance in support of programs of non-
governmental organizations, notwithstanding the restriction imposed by
Section 508. The President (this authority has been delegated to the
Administrator of USAID3) must consider it in the U.S. national interest to
do so and Congress must be notified prior to the resumption of activities.
The USAID Administrator on May 1, 2000, taking into consideration that
it was in the U.S. national interest and pursuant to Section 541(a),
approved continued expenditure of existing obligations and the obligation
of fiscal year 2000 economic support and/or development assistance
funds. This approval covered five USAID-supported activities benefiting
Cote d’Ivoire (FHA, DHR, SSH, CEPPS, and ATRIP; see Appendix III
for program descriptions). USAID then notified Congress accordingly.

Section 522 authority—Section 522 of the appropriations act permits
child survival and disease funding to be used for child survival and
HIV/AIDS activities, notwithstanding any provision of law that restricts
assistance to foreign countries. USAID's FHA program activities being
implemented in Cote d’Ivoire at the time of the coup d’ état included such
child survival and HIV/AIDS activities. Accordingly, on May 22, 2000
USAID's Assistant Administrator for Africa approved, as a matter of
policy, the continued expenditure of existing obligations for child survival
and HIV/AIDS activities.

Regional activities—Consistent with prior years, USAID determined that
activities that provided only indirect regional assistance to Cote d’Ivoire
were not prohibited by the Section 508 sanction. Accordingly, the West
Africa Rice Development Association (WARDA) activity, which


3
    Executive Order 12163 as amended and State Department Delegation of Authority
    No. 145.



                                                                                6
conducted activities that provided only indirect regional assistance, was
approved to continue to receive funding.

Section 617 “wind up” authority—At the time of the coup d’ état,
USAID was supporting a Demographic and Health Survey in Cote
d’Ivoire for the benefit of the Ministry of Health in planning health
activities. According to USAID, this survey was approximately 90 percent
complete and therefore on May 22, 2000 USAID's Assistant Administrator
for Africa approved it for completion citing the “wind up” authority of
Section 617 of the Foreign Assistance Act (FAA). Section 617 of the
FAA provides that funds shall remain available for a period not to exceed
eight months from the date of termination of assistance for the necessary
expenses of winding up programs. USAID planned to delay the
distribution of the completed survey to the government of Cote d’Ivoire
until such time that the assistance suspension is lifted.

Activities not included in the “wind up” plan—Although the majority
of activities were included in USAID’s “wind up” plan, USAID supported
five additional activities that were benefiting Cote d’Ivoire at the time of
the military coup d’ état. These activities included:

!   Polio Eradication in Africa (World Health Organization/AFRO)
!   U.S. Centers for Disease Control & Prevention (CDC)
        Technical Assistance to the WHO Regional Office for Integrated
         Disease
        Surveillance (IDS) and Epidemic Preparedness and Response
        Database on Anti-malarial Drug Resistance
!   Africa Disease Control (World Health Organization/AFRO)
!   Peace Corps Small Project Assistance (SPA) Program

The above World Health Organization and CDC activities can be
considered as providing only indirect regional assistance, and therefore,
were exempt from the sanctions of Section 508, regardless of whether they
were included in the Administrator’s approved “wind up” plan. However,
the USAID-funded SPA program of the Peace Corps did not fall under this
exemption. This program is discussed below.

USAID-funded Peace Corps
Activities Were Not Suspended

A USAID-funded Peace Corps program was not suspended after the coup
d’ état as required by the Act. This occurred because the Africa Bureau
did not have adequate procedures to coordinate with other USAID offices
to identify all USAID-funded programs and notify program managers of
the sanctions provided by Section 508. As a result, the Peace Corps



                                                                       7
reported disbursing $122,000 after the coup d’ état, contrary to the
provisions of Section 508.

USAID’s Global Bureau provided funds to the Peace Corps using a
Foreign Assistance Act Section 632(b) interagency agreement. The funds
were for the Small Project Assistance (SPA) program with objectives to
identify, design, and implement small-scale, community-level, self-help,
sustainable development activities in areas of priority to USAID. The
intent of the SPA program was to provide an efficient mechanism that can
respond quickly and flexibly to small-scale project requirements which
have an immediate impact at the community level.

USAID’s Global Bureau reported that it obligated $2.84 million in fiscal
year 2000 and planned to obligate $1.2 million in fiscal year 2001 under
the interagency agreement to the Peace Corps for world-wide activities.
Under a 632(b) interagency agreement, funds provided from one agency’s
budget to another agency retain their statutory restrictions and
prohibitions. Thus, funds received by the Peace Corps under the 632(b)
agreement with USAID would be subject to restrictions of Section 508 of
the appropriations act against the provision of assistance to a country
whose democratically elected head of government is deposed by military
coup d’ état. Peace Corps officials in Cote d’Ivoire reported that, of those
amounts, they initially received $70,000 in fiscal year 2000 and an
additional $110,000 in fiscal year 2001 from their headquarters.

After the coup d’ état in December 1999, Peace Corps Cote d’Ivoire did
not suspend the SPA program, but continued to fund new small projects
until April 2001 when USAID’s regional legal advisor instructed them to
cease activity until a waiver could be obtained. Peace Corps officials
stated that prior to this they were not specifically instructed by anyone
from USAID that the SPA program was subject to Section 508 sanctions
and should be suspended until necessary waivers and congressional
notifications had been completed. Although a cable was sent immediately
after the coup d’ état to the U.S. Embassy in Abidjan stating that the
USAID assistance program was being suspended, the Peace Corps SPA
program was not specifically mentioned. The cable stated that a
prohibition on new obligations applied to the FHA, DHRF and SSH, and
Economic Support Fund (ESF)-funded activities, but did not specify Peace
Corps SPA. It added, however, “any other activities which provide
assistance to Cote d’Ivoire.” Because the instructions to suspend
assistance operations lacked specificity, we understand why, in a non-
presence country such as Cote d’Ivoire, the Peace Corps office would not
have been aware that this reference pertained to their SPA program.




                                                                       8
The failure to suspend activities occurred because the Africa Bureau did
not prepare a complete “wind up” plan identifying USAID-funded Peace
Corps activities in Cote d’Ivoire. This was primarily due to the fact that
the Africa Bureau did not maintain a comprehensive and updated schedule
of all USAID-funded activities benefiting this non-program.
Consequently, the Africa Bureau was not aware of the Peace Corps
activities, and as a result, did not specifically instruct Peace Corps
management to suspend activities until an appropriate waiver could be
obtained. As a result, the Peace Corps reported that its Cote d’Ivoire
program disbursed approximately $53,000 of fiscal year 2000 funds and
$69,000 of fiscal year 2001 funds after the coup d’ état and prior to
suspending activity in April 2001.

The following recommendations address the above issues. Since USAID
has already notified the Peace Corps to stop USAID-funded SPA activities
and has requested an appropriate waiver with congressional notification,
we consider that final action has already been taken on Recommendation
No. 1. Concerning Recommendation No. 2, the fiscal years 2001 and
2002 appropriations acts carry forward the provisions of Section 508. We
have, therefore, included the recommendation to address the need to
establish a standard system for effectively coordinating with other offices
to implement the requirements of Section 508 in the future.

         Recommendation No. 1: We recommend that USAID
         Bureau for Africa, in conjunction with other appropriate
         USAID offices:

         1.1      notify the Peace Corps to cease small project
                  activities in Cote d’Ivoire that are funded by
                  USAID, and

         1.2      obtain an appropriate waiver and prepare the
                  required congressional notification before the
                  activities are resumed.

         Recommendation No. 2: We recommend that USAID Bureau
         for Africa coordinate procedures with other appropriate
         USAID offices to ensure that: (1) a comprehensive and current
         schedule of all USAID-funded activities is maintained for non-
         presence countries in the Africa Bureau, (2) “wind up” plans
         prepared as a result of Section 508 of the Foreign Operations,
         Export Financing, and Related Programs Appropriation Act
         are complete and contain all USAID-funded activities in the
         country in question, and (3) management personnel of all




                                                                      9
         activities on the “wind up” plan are notified of the sanctions
         under Section 508.

Activity Resumed Prior to End of
Congressional Notification Period

A USAID-funded project was resumed prior to the end of the
congressional notification period, contrary to Section 508. Although
activities were initially stopped after the coup d’ état, the USAID
Administrator signed a waiver permitting resumption of activities, but also
requiring congressional notification. Since one of the activities was
resumed prior to the end of the notification period, the waiver technically
had not taken effect and Section 508 sanctions still applied. This occurred
because the Bureau for Africa did not coordinate with other offices to
ensure that program personnel were clearly instructed regarding when
activities could resume.

After the coup d’ état in December 1999, activities under the Democracy
and Human Rights Fund (DHRF) were reported as suspended in
accordance with the provisions of Section 508. Consistent with the Act,
the USAID Administrator approved a waiver, dated May 1, 2000, for
DHRF activities to restart under Section 541(a). The required
congressional notification of the use of Section 541(a) was dated June 28,
2000, with an expiration date of July 13, 2000, after which activities could
be resumed, barring any objection from Congress.

DHRF officials, however, did not wait until the end of the congressional
notification period prior to restarting activities. Under the DHRF
program, the U. S. Ambassador had previously signed a grant agreement
on June 22, 1999 with the Organization of Women Ministers and
Parliamentarians of Africa - Cote d'Ivoire (REFAMP-CI) with a planned
budget of $10,000. The objective of the grant was to finance a national
seminar to examine the current laws, regulations, and traditional
behaviors, along with their impact, on the rights of women in Cote
d'Ivoire. The grant had an original completion date of June 30, 2000, but
due to the suspension, no activity took place under the grant following the
coup d’ état.

However, on April 17, 2000, the U.S. Embassy/Abidjan processed an
advance under the grant requesting approximately $4,100 (3,032,972 local
currency) for REFAMP-CI. This was prior to the May 1, 2000 approval
by the Administrator for the Section 541(a) waiver, and before the
congressional notification period expiration date. Subsequently, on June
19, 2000, the U.S. Embassy/Abidjan paid the advance to REFAMP-CI for




                                                                      10
                 that amount under the original agreement, which was prior to the end of
                 the congressional notification. The liquidation voucher describing the
                 expenditures under this advance was subsequently received on
                 August 3, 2000.

                 Although, in this case, Congress ultimately did not object to the use of
                 Section 541(a), and, therefore, the subsequent resumption of activities,
                 Congress did have until the expiration date of the notice to put a hold on
                 the use of Section 541(a). Therefore, the exemption authority of Section
                 541(a) technically did not take effect until the end of the congressional
                 notification period. Consequently, the DHRF activities remained subject
                 to Section 508 sanctions when the REFAMP-CI activities resumed. By
                 restarting activities prior to the expiration date, DHRF officials denied
                 Congress the opportunity to object to the use of Section 541(a) authority
                 for the resumption of activities. Had Congress objected, it would have
                 been too late to stop the resumption of activities.

                 This occurred because the Africa Bureau did not coordinate with other
                 appropriate offices to ensure that activities in countries subject to Section
                 508 remained suspended until the proper time. DHRF officials in Cote
                 d’Ivoire had no record of correspondence from USAID clearly indicating
                 when they could resume activities. Nor did Africa Bureau officials have a
                 record of any official correspondence to the DHRF office authorizing the
                 resumption of activities. As a result, USAID-funded activities resumed
                 during the period when the Section 541(a) exemption had technically not
                 taken effect and Section 508 sanctions were still in force. To ensure that
                 other offices employing USAID funds in the future avoid this type of
                 compliance problem, the Africa Bureau needs to strengthen its
                 coordination procedures with other offices so it is clear when resumption
                 of activities can take place.

                 The following recommendation addresses the above issue.

                          Recommendation No. 3: We recommend that the USAID
                          Bureau for Africa coordinate procedures with appropriate
                          USAID and other U.S. Government offices to ensure that
                          personnel managing assistance programs in countries under
                          section 508 restrictions are informed when they may resume
                          activities.




Management       Bureau management generally agreed with the recommendations in the
Comments and     report. As stated earlier, Recommendation Nos. 1.1 and 1.2 are closed
Our Evaluation

                                                                                        11
upon the issuance of this report.

In response to Recommendation No. 2, the Africa Bureau stated that it is
presently preparing Activity Information Sheets (AIS), in conjunction with
other Bureaus, for activities not found in the country database to ensure
that the database is comprehensive. Additionally, the Bureau intends to
implement new procedures under which Country Development Officers
will annually review the AIS database. The General Counsel will also
include an item in the annual country checklist whereby Country
Development Officers will verify that they have completed this task. In
addition, future USAID cables, issued in response to a situation in which a
democratically elected head of government is deposed by a military coup,
will be copied to Policy and Program Coordination, which will post a
notice on the USAID web site notifying activity managers. We believe
that these additional procedures are adequate to ensure that a
comprehensive database of non-presence countries is maintained, future
“wind up” plans are complete and that all activity managers with
operations in countries subject to Section 508 will be notified of the
sanctions. Therefore, we concur that the Africa Bureau has reached a
management decision on Recommendation No. 2.

In addition to the above, the Africa Bureau further plans to revise the cable
providing guidance on the preparation of the “wind up” plan, as well as
the “wind up” plan itself, in response to Recommendation No. 3. These
documents will state that cognizant technical officers may resume an
activity only upon specific notification that such activity may begin again.
We agree that this will be adequate to ensure that future activities
suspended under Section 508 sanctions will not be resumed prematurely.
We, therefore, concur that the Bureau has reached a management decision
for Recommendation No. 3.




                                                                      12
                                                                                            Appendix I


Scope and     Scope
Methodology
              The audit was conducted in accordance with generally accepted
              government auditing standards and assessed whether, for its programs in
              Cote d’Ivoire, USAID complied with selected sections of recent
              legislation. This legislation addresses the suspension of assistance to
              countries whose democratically elected head of government was deposed
              by a military coup d’ état.

              Field work was performed at the following locations:

              !   USAID/Senegal from February 2, 2001 through October 26, 2001;
              !   USAID/Mali from February 12, 2001 through February 15, 2001;
              !   Africa and Global Bureaus of USAID/Washington from March 16, 2001
                  through August 6, 2001; and
              !   Field offices of various USAID supported activities in Cote d’Ivoire
                  from June 11, 2001 through June 22, 2001.

              In answering our audit objective, our audit scope included reviewing any
              USAID supported (i.e. funded) activities funded with fiscal year 2000
              appropriations benefiting Cote d’Ivoire from the date of the military coup d’
              état (December 24, 1999) though the end of our fieldwork.

              The audit criteria we principally used were comprised of Sections 508, 522,
              and 541(a) of the Foreign Operations, Export Financing, and Related
              Programs Appropriations Act, fiscal year 2000, Sections 451 and 617 of the
              Foreign Assistance Act, and the guidance provided by USAID/Washington
              to its Missions.

              We examined all activities reported on the Africa Bureau’s “wind up” plan
              as ongoing activities benefiting Cote d’Ivoire at the time of the coup d’ état.
              In addition, we looked at certain activities that were being conducted in the
              country during the coup d’ état but that were overlooked and not included in
              the plan.

              Methodology

              To assess management controls, the methodology included: (1) reviewing
              the Bureau for Africa’s systems to determine if they contained the
              information necessary to identify all activities being implemented in Cote
              d’Ivoire; (2) examining activity reports at the field, mission, and bureau
              levels; and (3) conducting interviews with cognizant officials to determine
              whether the Mission had met its responsibilities established by Section 508
              of the Foreign Operations, Export Financing, and Related Programs
              Appropriations Act, FY 2000.



                                                                                       13
To answer our audit objective, we: (1) reviewed USAID’s “wind up” plan
for activities in Cote d’Ivoire; (2) reviewed program documentation
maintained by USAID/Senegal and the USAID Bureaus in Washington; (3)
reviewed approvals and waivers issued by the USAID Administrator and
the Assistant Administrator for the Africa Bureau, (4) performed searches of
USAID’s Center for Development and Information and Evaluation (CDIE)
electronic database of program activities identifiable for Cote d’Ivoire; and
(5) conducted interviews with cognizant USAID officials in Senegal, Mali
and Washington and with implementing entities in Cote d’Ivoire.

Due to the importance of USAID complying with Section 508 of the fiscal
year 2000 Appropriation Act, for reporting purposes we identified our
materiality threshold as any activity, regardless of size, as having operations
in Cote d’Ivoire.




                                                                        14
                                                                                                  Appendix II



Management
Comments
                                                                                      February 21, 2002


MEMORANDUM


TO:            DAIG/A, Bruce N. Crandlemire

FROM:          DAA/AFR, Keith Brown (signed)

                        SUBJECT: Comments on Draft Report re: “Audit of USAID’s
                        Compliance with Military Coup d’Etat-Related Program Suspension
                        Requirements of Section 508 and Other Related Sections of the Foreign
                        Operations Appropriations Acts – Cote d’Ivoire,” Report No. 7-000-01-
                        00X-P

We have reviewed the subject draft audit report dated January XX, 2002, received by the Bureau
on January 23, 2002. The Africa Bureau concurs with the audit report’s recommendations and is
committed to resolving the issues raised in relation to these recommendations. With respect to
this commitment, the Bureau would like to make the following comments on the report’s
findings and the actions taken to resolve them.


RECOMMENDATION NO. 1

We recommend that USAID Bureau for Africa, in conjunction with other appropriate USAID
offices:

1.1     notify the Peace Corps to cease small project activities in Cote d’Ivoire that are funded by
        USAID,

1.2     obtain an appropriate waiver and prepare the required congressional notification before
        the activities are resumed.


AFRICA BUREAU COMMENT:

The Africa Bureau concurs with this recommendation, and notes the reference in the RIG Cover
Memorandum that the recommendation is closed with final action taken.




                                                                                                15
RECOMMENDATION NO. 2

We recommend that USAID Bureau for Africa coordinate with appropriate USAID offices to
ensure that: (1) a comprehensive and current schedule of all USAID-funded activities is maintained
for non-presence countries in the Africa Bureau, (2) “wind-up” plans prepared as a result of Section
508 of the Foreign Operations Appropriation Act are complete and contain all USAID-funded
activities in the country in question, and (3) management personnel of all activities on the “wind-
up” plan are notified of the sanctions under Section 508.


AFRICA BUREAU COMMENT:

The Africa Bureau agrees with the auditors as to the importance of a comprehensive database of
activities in each country. In May 2000, the Agency instituted such a system, the Activity
Information Sheet (AIS) System, which is managed by PPC. The AIS system requires that the
activity manager of every activity that is not covered by a country strategy submit a short sheet
to the AIS database. The comprehensiveness and updating of the AIS database must be the
responsibility of each Agency bureau managing non-presence country activities since many of
the activities in non-presence countries are managed by other bureaus.

The Africa Bureau reviewed the Cote d’Ivoire portion of the AIS database and observed that
several activities known to be operating in Cote d’Ivoire in FY 2001 were not listed in the AIS
database for Cote d’Ivoire, despite the fact that waivers had been approved for the activities to
take place after the coup d’etat. The Africa Bureau, in conjunction with other Bureaus, is
presently preparing AIS sheets for the activities to be entered into the PPC database. The Africa
Bureau agrees that it would be useful for PPC to issue an Agency-wide reminder of the need to
submit all required AIS sheets. In fact, PPC does issue such notices on the Electronic Bulletin
Board System at intervals during the year, the last notice dating from January 2002. PPC
distributed a notice in February 2002 inviting desk officers to a session in March 2002 designed
to explain access to the data system and to underline the importance of updating the system.

The Africa Bureau believes that there are already in place sufficient procedures for the
preparation of wind-up plans and the notification of resumption of activities. The delayed
suspension of one activity and the early resumption of another activity were due to an
inadvertent oversight of existing procedures rather than a lack of adequate procedures.

The military coup in Cote d’Ivoire, a non-presence country, occurred on December 24, 1999. On
January 3, 2000, pursuant to State Department instructions, USAID sent a short cable to the U.S.
Embassies in Cote d’Ivoire and Senegal informing them of the coup and directing them to
suspend the USAID assistance program for Cote d’Ivoire (State 86). To facilitate its immediate
issuance, this cable was short and general in its direction to suspend, and stated that more
detailed instructions would follow shortly. This cable was also copied to the legal counsel for
Agency bureaus that could be managing activities in Cote d’Ivoire, in order to facilitate broad
notification of the coup and the suspension of assistance.




                                                                                             16
On January 18, 2000, USAID sent a follow-up cable containing detailed guidance on the
suspension, and requested immediate preparation of a wind-up plan identifying all USAID
funded assistance for Cote d’Ivoire (State 9855). This cable requested detailed information “on
all regionally and centrally funded assistance to Cote d’Ivoire to ensure that the wind-up plan is
comprehensive and that all activities are considered for possible continuation to the extent
permitted by legislation.” This follow-up cable also stated that “there may be assistance to Cote
d’Ivoire through other mechanisms such as AFR/SD and G. This guidance is to ensure that
USAID considers all assistance to Cote d’Ivoire and includes all USAID financed programs in
the wind-up plan.”

While the cable suggested a few types of activities that generally occur in most African countries
(e.g., ESF, Self-Help, and DHRF), it purposely did not attempt to identify all activities that might
be occurring in Cote d’Ivoire, in order to facilitate its rapid issuance and to avoid creating the
impression that all affected activities had been identified.

Since Cote d’Ivoire is a non-presence country, this cable was sent to the several field posts with
involvement in the Cote d’Ivoire program (Embassy Cote d’Ivoire, USAID/Mali which has
programmatic responsibility for Cote d’Ivoire, and USAID/Dakar which provides certain
services for the Cote d’Ivoire program) to ensure the broadest coverage. It was also cleared by,
and copied to, USAID/W bureaus and offices in the Africa Bureau that could have multi-country
activities in which Cote d’Ivoire was participating.

These cables followed the standard text and distribution for suspension and termination cables
after a military coup or Brooke sanction, with appropriate modification for the applicable type of
suspension (Brooke or military coup) and any annual changes to legislation.

To further ensure that all activities involving Cote d’Ivoire were identified, Africa Bureau
personnel made follow-up telephone calls to managers of multi-country activities, and the final
wind-up plan was cleared by personnel from bureaus and offices responsible for multi-country
activities, and included a statement that the plan included all their activities which provided
assistance to Cote d’Ivoire.

For activities that are not managed by the Africa Bureau, the Africa Bureau does not have the
authority to directly notify the contractors and grantees to suspend or resume assistance. For
direct contracts and grants, it is the cognizant contracting and grant officers who have the
authority and responsibility to direct a contractor or grantee to suspend and resume assistance.
Notice to the contract/grant officer regarding suspension and resumption of assistance needs to
come from the responsible technical officer. Similarly, it is the responsible agreement officer
who has the authority and responsibility to notify another USG agency, under an interagency
agreement, of suspension and resumption. The Africa Bureau will notify its responsible officers
and will also notify another USG Agency of any suspension or resumption of assistance under an
interagency agreement that it has signed. Africa Bureau notifies its responsible officers of
suspension of assistance through (a) dissemination of FM/LMD's delinquency report, (b) a wind-
up plan cable, (c) wide distribution of GC/AFR's country restrictions matrix distribution, and (d)
additional means, as appropriate.



                                                                                             17
For interagency agreements, the cognizant technical officer has the responsibility to notify other
USG agencies with which AFR has signed interagency agreements.

The above procedures notwithstanding, the Africa Bureau and other concerned offices, in order
to improve inter- communication and coordination between our offices, as well as to improve the
quality of a wind-up plan, intend to implement the following new measures:

--Country Development Officers (CDOs) will annually review the AIS database for their country
and inform PPC of any activity they know about in their country not covered by a country
strategy, for which there is not a sheet in the AIS database. GC will include an item in the
annual country checklist whereby CDOs verify that they have completed this task. In this
regard, GC/AFR included this item in the FY 2002 country checklist distributed to the AFR
CDOs by e-mail on January 15, 2002. GC/AFR also distributed a sample notice to AFR CDOs
to send to PPC of any activities they noticed were missing from the AIS database.

--Following a determination by the State Department of a situation where a democratically
elected head of government is deposed by a military coup d’etat, a USAID cable will be copied
to PPC which will post a “flare notice” on the Agency website notifying activity managers.

Based on the procedures already in place, actions completed and actions in process, we request
resolution and closure of Recommendation No. 2.


RECOMMENDATION NO. 3

We recommend that the USAID Bureau for Africa coordinate with appropriate USAID offices to
ensure that personnel managing assistance programs in countries under section 508 restrictions are
informed when they may resume activities.


AFRICA BUREAU COMMENT:

The Africa Bureau concurs with this recommendation.

Our response to Recommendation No. 2 included new actions designed to improve the
communication between the Africa Bureau and other related Bureaus and offices. We further
propose that the cable providing guidance on the preparation of the wind-up plan and the wind-
up plan itself state that CTOs may resume an activity only upon specific notification that such
activity may begin again.

Based on the procedures already in place, actions completed and actions in process, we request
resolution and closure of Recommendation No. 3.

The Africa Bureau appreciates the collaboration and assistance that the auditors provided during
the course of this audit.




                                                                                             18
                                                                                   Appendix III



Description
of Activities
                  Activities Funded by USAID and Benefiting Cote d’Ivoire
        Name of Activity                              Description of activity
Family Health and AIDS Project The FHA program carries out regional and bilateral health
(FHA) (Activity 624-0440)         activities in West and Central Africa. The FHA program is
                                  comprised of four programmatic components: Family
                                  Planning, HIV/AIDS Prevention, Child Survival and
                                  Nutrition, and Capacity Building.
The Consortium for Elections      Providing technical assistance for elections administration
and Political Process             and working with the Constitutional Electoral Consultative
Strengthening (CEPPS)             Commission in drafting and promulgating a new constitution
(CA AEP-5468-A-00-5038-00)        and electoral code.
Center for Trade and Investment Funding of a local representative for the Global Technology
Service/Global Technology         Network in Cote d’Ivoire who works in the offices of the
Network (IESC)                    West Africa Enterprise Network, an association of private
(Activity 940-0102)               businessmen and women.
West Africa Rice Development      WARDA is an autonomous research association with the
Association (WARDA)               mission to strengthen Sub-Saharan Africa’s capability for
                                  technology generation, technology transfer, and policy
                                  formulation to increase the productivity of rice-based
                                  cropping systems.
Demographic and Health Survey This activity supports the preparation of the 1998/1999
                                  Demographic and Health Survey for Cote d’Ivoire.
Ambassador’s Special Self Help U.S. bilateral assistance projects to Cote d’Ivoire rural
(SSH) (Activity 698-9901.81)      communities. The projects are funded by USAID and
                                  managed by the Embassy in Abidjan.
Democracy and Human Rights        Nine small scale democratization projects managed by the
Funds (Activity 698-0541.81)      U.S. Embassy in Abidjan.
Research grant to UNICEF          Community-based surveillance of acute flaccid paralysis
covering suspected polio          (suspected polio) in Cote d’Ivoire.
Peace Corps Small Assistance      The program facilitates local grass-roots efforts by
Program (SPA)                     combining Peace Corps Volunteers knowledge of local
                                  conditions with USAID technical and financial resources. In
                                  Cote d’Ivoire the programs primarily dealt with community-
                                  level self-help projects.
Centers for Disease Control and Technical advice to the World Health Regional Office for
Prevention Technical Assistance Africa to improve policies and strategies for targeted disease
                                  surveillance and epidemic preparedness and response.
Centers for Disease Control and Technical assistance in developing a database of information
Prevention Technical Assistance of levels of anti-malarial drug resistance in Africa.




                                                                                        19
       Name of Activity                           Description of activity
Africa Disease Control        Support to the World Health Organization regional office in
(WHO/AFRO)                    Africa for inter-country prevention and control of disease in
                              Africa.
Polio Eradication in Africa   Support to the World Health Organization’s Africa Regional
(WHO/AFRO)                    Office polio eradication program activities.




                                                                                     20
